LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

January 28, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 19-438: CLEMENTE AVELINO PEREIDA V. WILLIAM P. BARR, ATTORNEY GENERAL
Dear Sir or Madam:
I hereby certify that at the request of Petitioner, on January 28, 2020, I caused
service to be made pursuant to Rule 29 on counsel for the Respondent:
RESPONDENT:
The Honorable Noel Francisco
Solicitor General
United States Department of Justice
Room 5614
950 Pennsylvania Ave. NW
Washington, DC 20530-0001
supremectbriefs@usdoj.gov
This service was effected by depositing three copies of the Brief for Petitioner in
an official “first class mail” receptacle of the United States Post Office as well as by
transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 28th day of January 2020.

